No. 19-177

 

 

Su The
Supreme Court of the Anited States

UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT, ET AL.,

Petitioners,

ALLIANCE FOR OPEN SOCIETY
INTERNATIONAL, INC., ET AL.,

Respondents.

 

AMICUS BRIEF OF THE AMERICAN CENTER FOR LAW AND
JUSTICE IN SUPPORT OF PETITIONERS

CERTIFICATE OF SERVICE

Walter M. Weber, a member of the Bar of this Court and an attorney for amicus, pursuant to
Rule 29.5(b), hereby certifies that three copies of the Amicus Brief of the American Center for
Law and Justice in Support of Petitioners have this day been served upon all parties required to
be served, in compliance with Rule 29.3, by first-class mail, postage prepaid, mailed from
Washington, D.C., to counsel at the addresses below. In addition, a PDF version of this
document is being transmitted electronically to counsel listed below.

Noel J. Francisco, Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW,
Washington, DC 20530-0001
Supreme Ct Briefs@USDOJ.gov
(202) 514-2217

Counsel for Petitioners United States

Agency for International Development, ef al.

February 3, 2020

David William Bowker

Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Avenue, N.W.
Washington, DC 20006
david.bowker@wilmerhale.com

(202) 663-6558

Counsel for Respondents Alliance for
Open Society International, Inc., et al.

 
